Department of Health and Human Services

        OFFICE OF

    NSPECTOR GENERAL





DRG 121 VALIDATION STUDY UPDATE:
  CIRCULATORY DISORDERS WITH
   MYOCARDIAL INFARCTION AND
 CARDIOVASCULAR COMPLICATIONS




               OCTOBER 1992

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-
452, as amended, is to protect the integrity of the Department of Health and Human
Services (HHS) programs as well as the health and welfare of beneficiaries served by
those programs. This statutory mission is carried out through a nationwide network of
audits, investigations, and inspections conducted by three OIG operating components:
the Office of Audit Services, the Office of Investigations, and the Office of Evaluations
and Inspections. The OIG also informs the Secretary of HHS program and
management problems and recommends courses to correct them.

                           OFFICE OF AUDIT SERVICES

The OIG’S Office of Audit Services (OAS) provides all auditing services for HHS,
either by conducting audits with its own audit resources or by overseeing audit work
done by others. Audits examine the performance of HHS programs and/or its
grantees and contractors in carting out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations in
order to reduce waste, abuse, and mismanagement and to promote economy and
efficiency throughout the Department.

                           OFFICE OF INVESTIGATIONS

The OIG’S Office of Investigations (01) conducts criminal, civil, and administrative
investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries
and of unjust enrichment by providers. The investigative efforts of 01 lead to criminal
convictions, administrative sanctions, or civil money penalties. The 01 also oversees
State Medicaid fraud control units which investigate and prosecute fraud and patient
abuse in the Medicaid program.

                  OFFICE OF EVALUATION AND INSPECTIONS

The OIG’S Office of Evaluation and Inspections (OEI) conducts short-term
management and program evaluations (called inspections) that focus on issues of
concern to the Department, the Congress, and the public. The findings and
recommendations contained in these inspection reports generate rapid, accurate, and
up-to-date information on the efficiency, vulnerability, and effectiveness of
departmental programs.

Amy L. Lockwood of BOTEC Analysis Corporation prepared this report with
direction from Janet W. Knight, BOTEC Project Director, and David C. Hsia, OIG
Project Officer. Contract information and project participants are listed in Appendix
A to this inspection.
Department of Health and Human Services

        OFFICE OF

    NSPECTOR GENERAL





DRG 121 VALIDATION STUDY UPDATE:
  CIRCULATORY DISORDERS WITH
   MYOCARDIAL INFARCTION AND
 CARDIOVASCULAR COMPLICATIONS




          OCTOBER 1992   OEI-12-89-00194

              EXECUTIVE                         SUMMARY

PURPOSE

This inspection reabstracted on a blinded basis, the International Classification of
Diseases, 9th Edition, Clinical Modification codes from a sample of Medicare
discharges billed as diagnosis-related group (DRG) 121. It compared the reabstracted
DRGtothe      hospital-billed DRGfor reimbursement changes. The sample was
nationally representative and covered all of 1988, the most recent data available.

This inspection updated a previous Office of Inspector General (OIG) study. For
1985, the OIG found 17,7 percent errors among 76 reabstractions, improperly over-
reimbursing hospitals by a projected $42.2 million. This inspection used a parallel
methodology to make these studies statistically comparable. Statistical tests
determined whether numeric differences between 1985 results and 1988 results were
real (statistically significant) or could be attributed to random error.

FINDINGS

DRG 121 billing errors not reduced

Of 115 discharges reabstracted for this inspection, 12.2 percent had billing errors. The
difference between this result and the 17.7 percent error rate the OIG found for DRG
121 discharges in 1985 was not statistically significant. Further, the difference between
this inspection’s 12.2 percent error rate and the 14.7 percent errors for all discharges
in 1988 also lacked statistical significance.

Financial impact not reduced

This inspection projected that DRG 121 billing errors over-reimbursed hospitals $28,7
million. This result did not statistically differ from the $42.2 million over-
reimbursement in 1985. The increase in the number of DRG 121 bills in 1988 largely
offset the decrease in the proportion of errors.




                                            1
              TABLE                     OF CONTENTS


EXECUTIVE         SUMMARY               ....................................                                                                              i


TABLE OF CONTENTS                 ......................................                                                                                 ii


INTRODUCTION             ...........................................                                                                                      1


FINDINGS . . . . . . . . . . . . . . . . . . . . . . . . .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   4

      DRG121billing       errornot reduced . .               .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   4

      All errors over-reimburse the hospitals                .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   4

      Over-reimbursement continues . . . . . .               .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   4

      Reasons for errors . . . . . . . . . . . . . . .       .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   5


ENDNOTES          ...............................................                                                                                         6


APPENDICES          ..............................................                                                                                        7


A Project participants        ..,....      .................................                                                                              8


B: ICD-9-CM codes in DRG 121.....                   ..........................                                                                           10


C: Sample representativeness.             .................................                                                                              11


D: Proportion     of DRG 121 billing errors, 1985 and 1988 . . . . . . . . . . . . . .                                                                   12


E: DRG 121 case-mix index change, 1985 and 1988 . . . . . . . . . . . . . . . . .                                                                        13

                         INTRODUCTION


Background


Diagnosis-related group (DRG) 121 includes 121nternational CJassificationof

Diseases, 9th Edition, Clinical Modification (ICD-9-CM) codes. The ICD-9-CM codes

may appear as either principal or secondary diagnoses. These ICD-9-CM codes

identify complications to cardiovascular disease. To group to DRG 121, a bill must

have codes for both an acute myocardial infarction and cardiovascular complications.

The myocardial infarction must have occurred within eight weeks of the date of

admission for the DRG 121 billing. Either diagnosis may appear as the primary or

secondary diagnosis. [Appendix B].


DRG 121’s weight decreased from 1.8454 in 1985 to 1.7162 in 1988. In October 1989,

the HCFA altered DRG 121 by adding a fifth digit to ICD-9-CM code 410 to identify

whether a given admission is the initial or subsequent treatment for a myocardial

infarction. This change deleted the rule requiring that patients with an identified

myocardial infarction or a myocardial infarction in the prior eight weeks be included in

DRG 121. This change did not affect the period of this study.


In a previous study, the OIG found that DRG 121 had a disproportionately high

proportion of billing errors. 1 Correct ICD-9-CM coding would have grouped 17.7

percent of its 76 reabstractions to different DRGs in 1985. These billing errors over-

reimbursed the hospitals a projected $42.2 million.


This inspection updated the previous study using 1988 data, the most recent available.

It used a parallel methodology to make these inspections statistically comparable.


Methodology


This inspection randomly selected 115 DRG 121 discharges from 42 hospitals. The

study population consisted of the 142,312 Medicare-reimbursed DRG 121 discharges

during calendar year 1988. The design excluded discharges from specialty institutions

such as children’s hospitals, tuberculosis units, and psychiatric facilities. It also

excluded discharges in Maryland and New Jersey, which the PPS still exempted in

1988. Finally, it excluded bills for pediatric, obstetric, and psychiatric DRGs

(principally drug and alcohol rehabilitation performed by a general hospital).’ Unlike

its 1985 predecessor, it included hospitals established since the advent of the PPS in

1983.


The OIG requested that hospitals send complete copies of the sampled medical

records to the OIG’S contractor, Baxter-Health Data Institute (HDI) of Lexington,

MA. The OIG followed-up missing records and issued subpoenas to compel the

cooperation of four hospitals.




                                            1

The OIG contracted with the American Medical Record Association (AMRA) to
reabstract the charts. The AMRA selected ICD-9-CM codes supported by the record,
determined the principle diagnosis, and grouped to select the correct DRG. To assure
that the original ICD-9-CM codes and DRGs did not effect the reabstraction, the
AMRA coders conducted their work without knowledge of the original ICD-9-CM
codes and DRGs. The coders had instructions not to treat marginal problems or
honest differences in judgement about appropriate coding as DRG errors. This
standard should have produced a conservative estimate of the proportion of discharges
having DRG errors. A series of reliability checks verified the reproducibility and
accuracy of the AMRA coding. The AMRA also identified the reasons why a
hospital’s bill differed from the correct codes.

BOTEC Analysis Corporation of Cambridge, Massachusetts (BOTEC) edited the
AMRA database, checked the sample’s representativeness, and conducted statistical
analyses of the correlates and financial consequences of DRG 121 miscoding. It also
reweighted the 1985 data to improve comparability with this inspection. The t-test
determined whether numeric differences between 1985 results and 1988 results were
real (statistically significant) or could be attributed to random error.

Representativeness

To test the    sample’s representativeness, the OIG compared the distribution of sample
bills to the   distribution of the underlying population of DRG 121. The sample and
population     did not differ significantly with respect to hospital or patient characteristics.
[Appendix      C].




                                                 2

                          Bed size                                            Teachingstatus




          e.
                    <100        ,@                 100€
    1004?99€



                                              301)+          WwMii                         @&i”
                                                                                     Nonteachlng

          Sample                         Population                  Sample                  Population


                         Location                                                  Control

    Metropolitan
          ~Me’”’71


              W..tmp!!2?..W’W.                                    N-’f@-Gpti

              Sample             Population                            Sample                Population

‘igure 1: Sample representativeness               by hospital demography, 1988


                               Age                                                   Sex
                                                 a5-74                                         Male
                       65-74                                                MaJe

                           a4
      75-84                      75-84

                                                         ;             98
                                                                                                      Female

               Sample                Population                         Sample                Population



                                                             Race




                                                             3

                                  FINDINGS


DRG 121 billing error not reduced

Of the 115 sample discharges, 12.2
percent had billing errors that changed
                                                 25
                                                                   a
their reimbursement from DRG 121.
The difference between this result and
                                                 20
                                                                        t-
                                                                        -i        �
                                                                                       Year
                                                                                      1985
the 17.7 percent error rate the OIG              15
                                                                                  �   1988
found in 1985 was not statistically



                                                      1
                                                 10
significant.1 This trend applied across
most hospital and patient characteristics.       5
Small hospitals, for-profit hospitals, and
younger patients showed more                     0
                                                      DRG 121
                                                                   i
                                                                   AllDRGs
improvement in coding accuracy.
[Appendix D].
                                            ~igure 3: Coding errors, 1985 & 1988
This 1985-1988 decrease in the
proportion of billing errors exceeded the improvement for all DRGs, from 20.8
percent in 1985 to 14.7 percent in 1988. The difference between this inspection’s 12.2
percent DRG 121 errors and the 14.7 percent errors for all DRGs in 1988 was not
statistically significant.3

All errors over-reimbursethe hospitals

Of the 14 billing errors, all over-reimbursed to the hospitals. This proportion       did not
improve upon the 100 percent over-reimbursement reported for in 1985.

Over-reimbursement    continues

The 115 sample discharges originally carried Relative Weights of 1.8454, equivalent to
an average payment of $5,638. The AMRA reabstraction reduced the case-mix index
(CMI) by a statistically significant 0.0675. This reduction persisted across most
hospital and demographic characteristics. The net CMI change in 1988 did not differ
significantly from the net CMI change for DRG 121 in 1985. [Appendix E].

An extrapolation of the CMI change in 1988 to all 142,312 DRG 121 discharges from
the hospital categories included in this sample projected that billing errors over-
reimbursed hospitals a statistically significant $28.7 million. This over-reimbursement


1. Because of the smaller sample size that results from DRG-specific analysis,
estimates of coding for specific DRGs are less precise than OIG’S national estimate.
Statistical tests determined whether apparent differences were real (statistically
significant) or could be attributed to random error.


                                             4
did not statistically differ from the $42.2
million over-reimbursement in 1985.            $ miJon

The increase in the number of DRG                          $
121 bills offset the nonsignificant
improvement in coding accuracy.
                                                                             ii

Reasons for errors                                25


The AMRA identified only two types of
errors in the sample, mis-specification
and “other.” Mis-specification caused             o-
85.7 percent of the 14 billing errors.                    1985              1988

This proportion did not statistically
differ from in 1985. “Other” caused the       Figure 4: Financial impact of miscoding
remainder of the sample’s billing errors.     DRG 121, 1988 & 1985
This proportion also did not statistically
differ from 1985.




                                              5
                                 ENDNOTES


1. Stone D, Kleiman M, Meyers M, Schutte J, Lee F, Hsia D, & Krushat M. DRG
121: Circulatory disorders with acute myocardial infarction and cardiovascular
complications. Washington, DC: HHS Officeof Inspector General, 1989. Publication
no. OAI-12-88-01210.

2. Knight J W & Hsia D C, eds. National DRG Validation Study Update: Technical
Report. Washington, DC: HHS Office of Inspector General, 1992. Inspection no.
OEI-12-90-00191.

3. Knight J W & Hsia D C, eds. National DRG Validation Study Update: Summary
Report. Washington, DC: HHS Officeof Inspector General, 1992. Inspection no.
OEI-12-90-00190.




                                        6

APPENDICES




    7
                             Appendix A Project participants

QIg
Cathaleen A. Ahern, B.A.

Evan J. Buckingham, B.A.

David C. Hsia, J.D., M.D., M.P.H.

Thomas F. Komaniecki, M.P.A.

W. Mark Krushat, M.P.H.

Linda M. Moscoe, B.A.

Brian P. Ritchie, B.A.

Barry L. Steeley2

John M. Traczyk, B.A.


HCFA

Timothy F. Greene, M.A., M.B.A.

Stephen F. Jencks, M.D.

Michael R. McMullan, M.B.A.

Harry L. Savitt, Ph.D.

Jeanette M. Smith, M.D., M.P.H.3

Malcolm A. Sneen, B.S.


RAND Corporation

Haya P. Rubin, M.D., Ph.D4


Baxter-Health Data Institute5

Patricia J. Baxter, R.N.

Patricia Cassidy-Tsnosas, R.N.

Annette M. Delaney, R. N., M.A.

Ellen B. Inghilleri, R.N.

Janet Mathews, A.R.T.

Laurie H. Moore, R.R.A.

Claire Shannon, A.R.T.

Michele A. Wiese, B.A.


AMRA

Margret K. Amatayakul, M.B.A., R.R.A.

Mary Converse, R.R.A.

Nicholas J. Cotsonas, M.D.b

Linda Ertl, R.R.A.



   2.   Now at    Health Audit Services, Ellicott City, MD.
   3.   Now at    the Journal of the American Medical Association, Chicago, IL.
   4.   Now at    Johns Hopkins Medical Institutions.
   5.   Ceased    operations February 16, 1990.
   6.   Outside    contractor.


                                                 8
Rita M. Finnegan, R.R.A.

Desla Mantilla, A.R.T.

Barbara Manny, R.R.A.

Sonia Martyniuk, R.R.A.

Toula Nicholas, A.R.T.

Charlotte Razor, R.R.A.

LouAnn Schraffenberger, R.R.A.

Lynn Smetko, R.R.A.

Dawn Smith, A.R.T.

Joan Zacharias, A.R.T.


BOTEC Analvsis Corporation

Geraldine M. Berenholz, R.R.A.

Andrew H. Chalsma, B.A.

David P. Cavanagh, M.A., Ph.D.

Janet W. Knight, R.N., Ph.D.

by L. Lockwood, B.A.


                                  Contract information

Contractor

BOTEC Analysis Corporation

1698 Massachusetts Avenue

Cambridge, MA 02138


Proiect Officer

David Hsia, J.D., M.D., M.P.H.

Office of Inspector General

3301ndependence Avenue

Washington, D.C. 20201


Contract

HHS-1OO-9O-OO23

Firm-fixed price contract

$203,257





                                              9

                     Appendix B: ICD-9-CM codes in DRG 121

402     hypertensive heart disease with congestive heart failure

411.0   post-myocardial infarction syndrome

414     heart aneurysm

415.1   pulmonary embolism-infarction

426     atrioventricular block

427     tachycardia

428     congestive heart failure

429     papillary muscle rupture

441.0   dissecting aneurysm

458.9   hypotension

584     acute renal failure

785     shock





                                                10
                       Appendix C Sample representativeness

Number [percent]      Population   Sample             Chi-square

Hospital demomaphy
1-99 beds       21,874 [15.4]      14 [12.2]          1.02, 2 df, P= O.400
100-299 beds    55,381 [38.9]      49 [42.6]
300+ beds       65,050 [45.7]      52 [45.2]

Metropolitan    105,776 [74.3]      85 [73.9]         0.01, 1 df, P= O.071
Nonmetropolitan 36,536 [25.7]       30 [26.1]

Teaching           55,599 [39.1]    43 [37.4]         0.12, ldf, P= O.264
Nonteaching        86,713 [60.9]    72 [62.6]

Profit           14,650 [10.5]        9 [7.8]         0.75, 1 df, P= O.61O
Nonprofit       125,237 [89.5]     106 [92.2]

Patient demomaphy
c65 years         8,061 [5.7]         2 [1.7]         3.46, 3 df, P= O.672
65-74 years     56,834 [39.9]       52 [45.2]
75-84 years     56,279 [39.5]       44 [38.3]
85+ years       21,138 [14.9]       17 [14.8]

Male               71,330 [50.1]    49 [42.6]         2.26, 1 df, P= O.871
Female             70,982 [49.9]    66 [57.4]

White           127,723 [89.7]     104 [90.4]         0.55, 3 df, P= O.093
Black              8,794 [6.2]        7 [6.1]
Other              1,836 [1.3]        2 [1.7]
Unknown            3,959 [2.8]        2 [1.7]

Total          142.312 I1OO.O1 115 [100.01




                                                11

        Appendix D: Proportion of DRG 121 billing errors, 1985 and 1988

Number f standard           1988             1985*            t-test
error [percent]

Hospital demo~raphv
1-99 beds               1 [7.1 f 7.1]         8 [30.8 f 9.2]           3.87
100-299 beds            4 [8.2 f 4.0]         3 [12.0 * 6.6]           0.88
300+ beds              9 [17.3 t 5.3]         4 [16.0 f 7.5]           0.23

Metropolitan          10 [11.8 t 3.5]         8 [16.2 f 5.5]           0.87
Nonmetropolitan        4 [13.3 f 6.3]          7 [6.1 i 1.9]           1.89

Teaching               7 [16.3 f 5.7]          4 [3.5 ~ 1.6]           2.81
Nonteaching             7 [9.7 f 3.5]         11 [8.9 t 2.7]           0.22

Profit                  o [0.0 f 0,0]          1 [5.7 * 5.7]           3.50
Nonprofit             14 [13.2 f 3.3]        14 [18.3 3 4.8]           0.94

Patient demography
<65 years              1 [50.0   t   50.0]    1 [25,0   ~   25.0]      3.03
65-74 years             2 [3.8   ~   2.7]     8 [24.7   ~   7.6]       4.40
75-84 years            8 [18.2   t   5.9]     6 [24.0   t   9.5]       0.92
85+ years              3 [17.6   f   9.5]      o [0.0   f   0.0]       3.80

Male                    3 [6.1 t 3.5]         8 [17.1 ~ 6.0]           2.35
Female                11 [16.7 t 4.6]         7 [16.0 ~ 6.4]           0.11

White                 11 [10.3 t 3.0]
Black                  3 [42.9 f 20.2]
Other                   o [0.0 * 0.0]
Unknown                 o [0.0 f 0.0]

Total                 14 [12.2 f 3.1]        15 [17.0 f 4.4]           0.92

*Reweighted   for comparability to 1988.




                                               12

            Appendix E DRG 121 case-mix index change, 1985 and 1988

Relative weight ~     1988                   1985                  Difference    t-test
standard error

Hospital demo~raphy
1-99 beds         -0.0227 t 0.0227         -0.2362 t 0.0758        0.2135       4.55
100-299 beds      -0.0417 t 0.0209         -0.0774 * 0.0434        0.0357       1.40
300+ beds         -0.1038 ~ 0.0325         -0.0282 t 0.0963       -0.0756       1.53

Metropolitan        -0.0672 t 0.0207       -0.0673 f 0.0508        0.0001       0.00
Nonmetropolitan     -0.0681 f 0.0334       -0.0490 f 0.0161       -0.0191       0.89

Teaching            -0.0962 ~ 0.0345       -0.0061 ~ 0.0210       -0.0901       3.15
Nonteaching         -0.0503 t 0.0189       -0.0638 t 0.0183        0.0135       0.61

Profit               0.0000 f 0.0000       -0.0282 f 0.0282       0.0282        3.50
Nonprofit           -0.0732 i 0.0189       -0.0973 t 0.0470       0.0241        0.57

patient demomaphy
e 65 years        -0.4313     f   0.4313   -0.1803   ~   0.1803   -0.2510       3.89
65-74 years       -0.0198     t   0.0138   -0.1275   f   0.0695    0.1077       2.68
75-84 years       -0.0901     t   0.0301   -0.1750   f   0.0739    0.0849       2.03
85+ years         -0.1120     f   0.0611   -0.0000   t   0.0000   -0.1120       3.76

Male                -0.0423 f 0.0244       -0.0516 t 0.0689       0.0093        0.19
Female              -0.0862 t 0.0246       -0.1271 f 0.0557       0.0409        1.10

White               -0.0530   f   0.0155
Black               -0.3215   t   0.1530
Other                0.0000   *   0.0000
Unknown              0.0000   t   0.0000

Total               -0.0675 ~ 0.0175       -0.0845 t 0.0463       0.0170        0.39




                                                13

